 FEDERAL INFORMATION SECURITY
    MANAGEMENT ACT REPORT


                 Fiscal Year 2004
Evaluation of the Social Security Administration's
          Compliance with the Federal
     Information Security Management Act




                       A-14-04-14040


  September 2004   Patrick P. O’Carroll, Jr. – Acting Inspector General
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   September 30, 2004                                                 Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Fiscal Year 2004 Evaluation of the Social Security Administration’s Compliance with the
        Federal Information Security Management Act (A-14-04-14040)


        OBJECTIVE

        Our objective was to determine whether the Social Security Administration’s (SSA)
        overall security program and practices complied with the requirements of the Federal
        Information Security Management Act (FISMA) of 2002.1 We also reviewed the
        Agency’s efforts to reach green on the security portion of the expanded electronic
        Government (eGovernment) initiative of the President’s Management Agenda (PMA).
        Our analysis included an evaluation of SSA’s plan of action and milestones (POA&M),
        certification and accreditation (C&A), and systems inventory processes.

        BACKGROUND
        FISMA requires Federal agencies to create protective environments for their information
        systems. It does so by creating a framework, which includes annual Information
        Technology (IT) security reviews, vulnerability reporting, and remediation planning.2 In
        August 2001, the PMA was initiated to improve the management and performance of
        Government by focusing on citizen-centered, results-oriented, and market-based
        services.

        The Office of Management and Budget (OMB) developed a traffic light scorecard to
        show the progress agencies made: green for success, yellow for mixed results, and red
        for unsatisfactory. One of the five Government-wide PMA initiatives is to increase the
        number of Government services available to the public electronically, through the
        Internet. This initiative is known as expanded electronic Government or eGovernment.
        SSA’s current status is yellow and its score for progress in implementing eGovernment
        services is green. Many of the elements of the eGovernment initiative overlap or
        duplicate the requirements of FISMA. See Appendix C for more background.


        1
            Pub. L. No. 107-347, Title III, Sec. 301.
        2
            Pub. L. No. 107-347, Title III, Sec. 301, § 3544.
Page 2 – The Commissioner


SCOPE AND METHODOLOGY
FISMA directs each agency’s Office of the Inspector General (OIG) to perform an
annual, independent evaluation of the agency’s information security program and
practices.3 The OIG contracted with PricewaterhouseCoopers LLP (PwC) to audit
SSA’s Fiscal Year (FY) 2004 financial statements.4 Because of the extensive internal
control system work that is completed as part of that audit, our FISMA review
requirements were incorporated into the PwC financial statement audit contract. This
evaluation included reviews of SSA’s mission critical sensitive systems. These reviews
followed the Government Accountability Office’s (GAO) Federal Information System
Controls Audit Manual. 5 PwC performed an “agreed-upon procedures” engagement
using FISMA, OMB, National Institute of Standards and Technology (NIST) guidance,
and other relevant security laws and regulations as a framework to complete the
required OIG review of SSA’s information security program and its sensitive systems.6
As part of this evaluation, we also reviewed the Agency’s compliance with the PMA’s
eGovernment initiative. See Appendix D for more details on our Scope and
Methodology.

SUMMARY OF RESULTS

During our FY 2004 FISMA evaluation, we determined that SSA has generally met the
requirements of FISMA and the security portion of the PMA eGovernment initiative. SSA
has made improvements over the past year to further strengthen its compliance with
FISMA. The Agency has worked diligently to reach green on the PMA’s eGovernment
initiative.

To fully meet the FISMA and PMA requirements and enhance SSA’s information
management in this area, SSA should:

      •   complete the implementation of the Automated Security Self-Evaluation and
          Remediation Tracking (ASSERT) system as specified in SSA’s security policy
          and use the system to generate the POA&M reports;

      •   develop and enforce policies for the systems inventory to ensure the inventory is
          updated each year;




3
    Pub. L. No. 107-347, Title III, Sec. 301, § 3545.
4
    OIG Contract Number GS23F8126H, dated March 16, 2001. FY 2004 option was exercised
    on November 22, 2003.
5
    GAO Federal Information Systems Controls Audit Manual, Volume I: Financial Statement Audits,
     GAO/AMID-12.19.6, June 2001.
6
    OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information
    Security Management Act, August 23, 2004 and NIST Special Publication 800-26, Security
    Self-Assessment Guide for Information Technology Systems, November 2001.
Page 3 – The Commissioner


      •   continue to ensure that C&As are properly updated every 3 years or when a
          significant change occurs and new C&As are prepared for any new major
          system;

      •   develop and implement a methodology to accurately track and monitor IT
          security training; and

      •   fully test its continuity of operations plan (COOP).

PRESIDENT’S MANAGEMENT AGENDA – GETTING TO GREEN

According to the standards of the PMA, to get to green on its PMA eGovernment
scorecard, an agency must:

•     prepare quarterly status reports that document sustained progress in remediating IT
      security weaknesses; and

•     have the Inspector General verify that there is an effective Department-wide IT
      security remediation process; and

•     have 90 percent of operational IT systems properly secured (certified and
      accredited) including mission critical systems.7

We reviewed SSA’s remediation and C&A processes. Based on these analyses, SSA
has generally met the above standards as set by the PMA.

SSA IMPLEMENTED ASSERT TO MONITOR ITS REMEDIATION PROCESS AND
GENERATE POA&MS

During FY 2004, SSA implemented the ASSERT tool as the focal point of its
remediation process. According to the Agency, ASSERT will monitor all security
deficiencies and enable SSA to accumulate all system weaknesses and remediation
steps in a single location. ASSERT features include tracking the weakness by title and
source, identifying the individual responsible for resolving the weakness, and providing
the status on the resolution of the weakness. SSA plans to include ASSERT policies
and procedures in its Systems Security Handbook. Based on our review of the
ASSERT tool and the assessment of the compensating manual controls currently in
place until the system is fully implemented, the process generally met the OMB
requirements.8

The Agency has input into ASSERT the remediation tasks and scheduled completion
dates for the weaknesses that will be in its quarterly status report to OMB. Additionally,
SSA has completed a NIST Self-Assessment for each of its major systems, which were
7
    http://www.results.gov/agenda/standards.pdf as of September 1, 2004.
8
    OMB Memorandum M-04-25, Reporting Instructions for the Federal Information Security Management
    Act and Updated Guidance on Quarterly IT Security Reporting, August 23, 2004, page 14.
Page 4 – The Commissioner


also included in ASSERT.9 SSA manually generated its September 15, 2004 quarterly
POA&M update report; however, the December 15, 2004 quarterly POA&M update
report should be automatically generated from ASSERT. The manually prepared
POA&Ms were effective for tracking the weaknesses designated as reportable to OMB
by SSA.

The Office of the Chief Security Officer (CSO) coordinates with other components in the
Agency, specifically the Office of Finance, Assessment and Management and the Office
of Systems’ Office of Telecommunications and Systems Operation (OTSO) to ensure
that all security weaknesses are incorporated into ASSERT. OMB guidance requires
that agencies also report, “…all security weaknesses found during any other review
done by, for, or on behalf of the agency, including GAO audits, financial systems audits,
and critical infrastructure vulnerability assessments.”10 SSA reported 13 security
weaknesses to OMB in its September 2004 POA&M report. In addition, SSA is tracking
over 100 other security weaknesses and their remediations that the Agency identified as
non-OMB reportable.

SSA stated that remediation tasks and scheduled completion dates for all weaknesses
should be input into ASSERT by December 2004. When ASSERT is fully implemented
and complies with the current policies, the effectiveness of the Agency-wide IT security
remediation process should be improved.

OMB guidance states that the Agency needs to meet the requirements of development,
implementation, and management of an agency-wide POA&M process.11 Based on our
analysis, the ASSERT tool and the interim compensating manual controls generally met
the requirements set by OMB for an effective POA&M process.

SSA IDENTIFIED ALL PROGRAMS, SYSTEMS AND SUBSYSTEMS

FISMA requires that agencies develop and maintain an inventory of major information
systems.12 Program officials and Chief Information Officers (CIO) are responsible for
reviewing the security of all programs and systems under their respective control. In
FY 2004, SSA completed an inventory of all programs, systems, and subsystems. SSA
identified an inventory of 20 major systems, consisting of 14 general support systems
and 6 major application systems, as well as over 300 subsystems. Each subsystem
was listed with the corresponding system(s) it supported.

SSA’s CSO used a systems inventory from its Year 2000 effort as a baseline. The
Agency compared this baseline to the systems and subsystems in its National
Computer Center’s Business Impact Analysis and its ENDEVOR tool. ENDEVOR is an
9
  NIST Special Publication 800-26, Security Self-Assessment Guide for Information Technology Systems,
   November 2001.
10
   OMB Memorandum M-04-25, Reporting Instructions for the Federal Information Security Management
   Act, August 23, 2004, page 14.
11
   OMB Memorandum M-04-25, Reporting Instructions for the Federal Information Security
   Management Act and Updated Guidance on Quarterly IT Security Reporting, August 23, 2004, page 14.
12
   Pub. L. No. 107-347, Title III, Sec. 305(c)(2).
Page 5 – The Commissioner


integrated set of management tools used to control and monitor SSA’s application
development and production implementation processes. The Office of the CSO worked
with OTSO to ensure all subsystems were included in the systems inventory and any
obsolete systems were removed from the inventory. From these efforts, SSA
developed its systems inventory. We reviewed the process and the systems and
subsystems in the inventory. We performed limited testing of the inventory to determine
whether it included all subsystems. When we brought the items that were omitted from
the inventory to the Agency’s attention, SSA added the items to the inventory. The
inventory appears complete and no additional subsystems have come to our attention
that would lead us to believe additional items were omitted from this listing. SSA plans
to create a systems update policy to ensure the list is maintained and kept current. The
Agency is developing an appropriate methodology to maintain the inventory.

SSA CERTIFICATION AND ACCREDITATION PROCESS APPEARS TO COMPLY
WITH FISMA AND NIST GUIDANCE

NIST Special Publication (SP) 800-37 provides guidelines for the Federal Government
to certify and accredit its information systems. The Publication states “Security
certification and accreditation are important activities that support a risk management
process and are an integral part of an agency’s information security program.”13 The
security accreditation is management’s approval to put a system into operation and its
acceptance of any risk that will occur.14 The security accreditation must be prepared for
each major system and must include an approved system security plan, security
assessment reports, and POA&Ms.15

SSA system managers prepared the C&A for the major systems, which included the
documentation required by NIST SP 800-37. We reviewed the 20 C&As for the major
systems. The C&As appear to be in compliance with NIST SP 800-37. SSA must
ensure these 20 C&As are updated every 3 years or when a significant change occurs
and that new C&As are prepared for any new major system. Nothing came to our
attention that led us to believe there were any significant omissions from the C&A
process. As a result, over 90 percent of the Agency’s major systems and subsystems
were covered by the C&As. See Appendix E for the complete list of major systems that
were certified and accredited in FY 2004.

SSA NEEDS TO DEVELOP AN INFORMATION SECURITY TRAINING
METHODOLOGY

According to FISMA and OMB guidance, agencies are required to report on the extent
of security training provided during the reporting period.16 This includes security

13
   NIST Special Publication 800-37, Guide for the Security Certification and Accreditation of Federal
   Information Systems, May 2004, page 1.
14
   Id.
15
   Id, page 21.
16
   OMB Memorandum M-04-25, Reporting Instructions for the Federal Information Security Management
   Act, August 23, 2004, Section G.
Page 6 – The Commissioner


awareness training provided to all employees and information security training provided
to employees with specialized security responsibilities. We found that SSA provides
specialized security training for those employees with extensive security responsibilities
and security awareness training for other employees to perform their normal duties.
SSA currently accumulates this information manually to comply with FISMA. However,
it is difficult to manage the security training program without a sound methodology in
place.

SSA is developing a methodology to more accurately track the IT security training
provided to each employee. This information should identify the title, date and cost of
the training provided. The Agency decided to modify its Human Resources
Management Information System to track security training, but this change is not yet
complete. When a system or methodology is implemented, it is expected to enhance
SSA’s ability to manage its information system security training program.

SSA NEEDS TO IMPROVE ITS CONTINUITY OF OPERATIONS PLANS
PROCESSES AND PROCEDURES

SSA has not fully coordinated and tested its COOP. FISMA codifies a longstanding
policy requirement that each agency’s security program and security plan include the
provision for a COOP for information systems that support the operations and assets of
the agency.17

SSA continues to address its COOP issues for the entire Agency. For example, SSA
participated in the Government-wide disaster recovery exercise (DRE) known as
Forward Challenge. DRE gave SSA an opportunity to test its COOP at an executive
level. SSA executives were involved in this exercise, but it did not flow down to the front
line field workers. We determined that there are still some deficiencies and weaknesses
with SSA’s COOP and DRE. While detailed COOPs were completed and/or updated
during FY 2004, they were not fully tested. Furthermore, the COOP did not address
information and information systems provided or managed by other agencies,
contractors, or other sources. For example, SSA relies heavily upon other Federal and
State government agencies such as the Department of the Treasury (Treasury) and the
State Disability Determination Services. In the event of a disaster, SSA is uncertain as
to the availability of these agencies. SSA plans to coordinate and complete a DRE with
Treasury’s Financial Management Services next year.




17
     Pub. L. No. 107-347, Title III, Sec 301 § 3544(b)(8).
Page 7 – The Commissioner


CONCLUSIONS AND RECOMMENDATIONS

During our FY 2004 FISMA evaluation, we determined that SSA generally met the
requirements of FISMA and the security requirements of the PMA eGovernment
initiative. SSA worked cooperatively with the OIG to identify ways to comply with
FISMA and the eGovernment initiative. SSA has developed and implemented a wide
range of security policies, plans, and practices to safeguard its systems, operations, and
assets. To fully comply and ensure future compliance with FISMA and other information
security related laws and regulations, we recommend SSA:

1. Continue to ensure the ASSERT system is in compliance with the Agency’s policies,
   and properly identifies, tracks, and reports the remediation of all system deficiencies.
   The ASSERT tool should generate POA&Ms which should be monitored to ensure
   that deficiencies are resolved.

2. Create policy to ensure that the systems inventory is maintained and accurately
   reflects the current systems and subsystems operated by SSA.

3. Continue to ensure that C&As are properly updated every 3 years or when a
   significant change occurs and new C&As are prepared for any new major system.

4. Continue to implement a methodology to track and monitor IT security training and
   awareness.

5. Continue to implement a complete and coordinated COOP for the Agency, which is
   tested on a regular basis.




                                                        S
                                                        Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of the Inspector General’s Completion of Office of Management
             and Budget Questions concerning Social Security Administration’s
             Compliance with the Federal Information Security Management Act

APPENDIX C – Background and Current Security Status

APPENDIX D – Scope and Methodology

APPENDIX E – Systems Certified and Accredited in Fiscal Year 2004

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
ASSERT        Automated Security Self-Evaluation and Remediation Tracking
C&A           Certification and Accreditation
CIO           Chief Information Officer
COOP          Continuity of Operations Plan
CSO           Chief Security Officer
DDS           Disability Determination Services
DRE           Disaster Recovery Exercise
eGovernment   Electronic Government
FISMA         Federal Information Security Management Act
FY            Fiscal Year
GAO           Government Accountability Office
GISRA         Government Information Security Reform Act
IG            Inspector General
IT            Information Technology
NIST          National Institute of Standards and Technology
OIG           Office of the Inspector General
OMB           Office of Management and Budget
OPSS          Office of Protective Security Services
OTSO          Office of Telecommunication and Systems Operations
PMA           President’s Management Agenda
POA&M         Plan of Action and Milestones
PwC           PricewaterhouseCoopers LLP
SP            Special Publication
SSA           Social Security Administration
SUMS          Social Security Unified Measurement System
Treasury      Department of the Treasury
US-CERT       United States Computer Emergency Readiness Team
                                                                               Appendix B

Office of the Inspector General’s Completion of
Office of Management and Budget Questions
concerning Social Security Administration’s
Compliance with the Federal Information Security
Management Act
A. System Inventory and Information Technology (IT) Security
   Performance
A.1. By bureau (or major agency operating component), identify the total number of
programs and systems in the agency and the total number of contractor operations or
facilities. The agency Chief Information Officers (CIO) and Inspector Generals (IG) shall
each identify the total number that they reviewed as part of this evaluation in Fiscal Year
(FY) 2004. National Institute of Standards and Technology (NIST) Special Publication
(SP) 800-26 is to be used as guidance for these reviews.
                                        A.1.a.                   A.1.b.                   A.1.c.

                                   FY04 Programs            FY04 Systems           FY04 Contractor
                                                                                    Operations or
                                                                                       Facilities
                                 Total       Number       Total       Number       Total      Number
       Bureau Name              Number      Reviewed     Number      Reviewed     Number Reviewed
SSA                                 8            8          20            20          6            6
Agency Total                        8            8          20            20          6            6
Comments:
A.1.a. FY04 Programs
These programs are:
• Retirement insurance;
• Survivors insurance;
• Disability insurance;
• Hospital and medical insurance for the aged, disabled, and those with end-stage renal disease;
• Supplemental security income;
• Special Veterans Benefits;
• Unemployment insurance; and
• Public assistance and welfare services.
A.1.b. FY04 Systems
The Agency has identified 20 major systems and applications that are considered significant to the
Agency’s ability to support the Social Security Programs. All 20 systems were included in the
certification and accreditation (C&A) process in FY 04. See Appendix E for a complete list of the
systems and applications that the Agency considers to be critical to its ability to support the Social
Security Programs.

                                           B-1
A.2. For each part of this question, identify actual performance in FY04 for the total
number of systems by bureau (or major agency operating component) in the format
provided below.

                    A.2.a.             A.2.b.               A.2.c.             A.2.d.           A.2.e.

               Number of          Number of              Number of         Number of        Number of
                systems          systems with           systems for      systems with a    systems for
              certified and         security          which security      contingency         which
               accredited        control costs         controls have          plan         contingency
                                integrated into         been tested                         plans have
                                 the life cycle        and evaluated                       been tested
                                 of the system        in the last year
 Bureau      Total Percent   Total Percent   Total Percent   Total Percent Total Percent
 Name       Number of Total Number of Total Number of Total Number of Total Number of Total
SSA            20       100 %     20       100 %       20       100 %     19       95 %    18       90 %
Agency
Total     20            100 %     20       100 %       20       100 %     19       95 %    18       90 %
Comments:

A.2.a. Number of systems certified and accredited
There were 20 systems certified and accredited in FY 2004. These systems are listed in
Appendix E.

A.2.d. All of the 20 major systems have contingency plans except for the Social Security
Unified Measurement System (SUMS). SUMS was recently released to production.

A.2.e. All of the major systems were included in FY 2004 Disaster Recovery Exercise except
SUMS and Disability Case Adjudication and Review System.

A.3. Evaluate the degree to which the following statements reflect the status in your
agency, by choosing from the responses provided in the drop down menu. If
appropriate or necessary, include comments in the Comment area provided below.

                              Statement                                             Evaluation

a. Agency program officials and the Agency CIO have used
appropriate methods to ensure that contractor provided
                                                                            Mostly, or 81-95% of the
services or services provided by another agency for their
                                                                                       time
program and systems are adequately secure and meet the
requirements of FISMA, OMB policy and NIST guidelines,
national security policy, and agency policy.
b. The reviews of programs, systems, and contractor
                                                                            Mostly, or 81-95% of the
operations or facilities, identified above, were conducted using
                                                                                      time
the NIST self-assessment guide, 800-26.


                                                B-2
                           Statement                                        Evaluation

c. In instances where the NIST self-assessment guide was not         Mostly, or 81-95% of the
used to conduct reviews, the alternative methodology used                       time
addressed all elements of the NIST guide.

d. The agency maintains an inventory of major IT systems and           Almost Always, or 96-
this inventory is updated at least annually.                             100% of the time
e. The OIG was included in the development and verification of         Almost Always, or 96-
the agency’s IT system inventory.                                        100% of the time
f. The OIG and the CIO agree on the total number of programs,        Mostly, or 81-95% of the
systems, and contractor operations or facilities.                               time
g. The agency CIO reviews and concurs with the major IT
                                                                       Almost Always, or 96-
investment decisions of bureaus (or major operating
                                                                         100% of the time
components) within the agency.

                           Statement                                        Yes or No

h. The agency has begun to assess systems for
                                                                                Yes
e-authentication risk.
i. The agency has appointed a senior agency information
                                                                                Yes
security officer that reports directly to the CIO.
Comments:

A.3.a. – SSA’s Office of Protective Security Services (OPSS) is notified when new contracts
are awarded to service providers and is responsible for scheduling site visits to evaluate and
report on adequacy of security at the facility. OPSS also has a procedure in place that
ensures that it or a sub-contractor audit firm reviews between 230 and 240 different facilities
throughout the year. Such a review process follows an abbreviated form of the NIST and
OMB guidelines as necessary for the facility. These reviews may include visits to SSA Field
Offices and Regional Offices, State DDSs, and nongovernmental agencies. Further, the OIG
performed reviews of DDSs.

A.3.b. -SSA follows NIST SP 800-26 guidelines as part of the C&A process for all significant
applications and programs. The Agency uses an abbreviated form of the same NIST
guidelines for those entities or facilities that the Agency has not identified as “significant.”




                                            B-3
B.     Identification of Significant Deficiencies

B.1. By bureau, identify all FY04 significant deficiencies in policies, procedures, or
practices required to be reported under existing law. Describe each on a separate row,
and identify which are repeated from FY03. In addition, for each significant deficiency,
indicate whether a Plan of Action and Milestones (POA&M) has been developed. Insert
rows as needed.


                                         FY04 Significant Deficiencies
                      Total
                     Number                                                            POA&M
             Total  Repeated                  Identify and Describe Each             Developed?
Bureau Name Number from FY03                     Significant Deficiency               Yes or No
   Social
  Security
Administration

Agency Total         0           0
Comments:

The Agency has a process in place that identifies security weaknesses noted during the
course of audits and evaluations. SSA uses this information to create POA&Ms in
accordance with OMB guidelines. The SSA Chief Security Officer (CSO) oversees this
process and is responsible for the identification of all security findings from all audit reports
or evaluations. It is the decision of the Agency to log and track in a central system, those
security weaknesses that result in developing a POA&M.

In FY 2004, the Agency began the implementation of a centralized system to track security
weaknesses and their resolution. The system is from SRA, Inc. and is known as Automated
Security Self-Evaluation and Remediation Tracking (ASSERT). The system is based on
NIST SP 800-26. This off-the-shelf system is used by Agency components responsible for
the critical systems to document specific weaknesses identified during the NIST SP 800-26
review, audits, risk assessments, application reviews or any such system evaluation
process. SSA will use the system to report to OMB the number and status of security
weaknesses that resulted in the development of POA&Ms.

Prior to implementation of ASSERT, the Agency components completed the NIST SP 800-
26 questionnaires manually and submitted them to the CIO in the C&A packages. The CIO
manually prepared the POA&Ms and submitted them to OMB. With the introduction of
ASSERT, the process will be electronically entered and managed. According to SSA,
ASSERT is scheduled to be fully implemented and used for the preparation of the FY 2005
first quarter OMB POA&M update. ASSERT will include the components’ NIST SP 800-26
questionnaires.




                                            B-4
C.    OIG Assessment of the POA&M Process

C.1. Through this question, and in the format provided below, assess whether the
agency has developed, implemented, and is managing an agency-wide POA&M
process. This question is for IGs only. Evaluate the degree to which the following
statements reflect the status in your agency by choosing from the responses provided in
the drop down menu. If appropriate or necessary, include comments in the Comment
area provided below.

                    Statement                                      Evaluation
a. Known IT security weaknesses, from all
                                                      Almost Always, or 96-100% of the time
   components, are incorporated into the POA&M.
b. Program officials develop, implement, and
   manage POA&Ms for systems they own and
                                                      Almost Always, or 96-100% of the time
   operate (systems that support their program or
   programs) that have an IT security weakness.
c. Program officials report to the CIO on a regular
   basis (at least quarterly) on their remediation    Almost Always, or 96-100% of the time
   progress.
d. CIO develops, implements, and manages
   POA&Ms for every system they own and
                                                      Almost Always, or 96-100% of the time
   operate (a system that supports their program
   or programs) that has an IT security weakness.
e. CIO centrally tracks, maintains, and reviews
                                                      Almost Always, or 96-100% of the time
   POA&M activities on at least a quarterly basis.
f. The POA&M is the authoritative agency and IG
    management tool to identify and monitor
                                                     Almost Always, or 96-100% of the time
    agency actions for correcting information and IT
    security weaknesses.
g. System-level POA&Ms are tied directly to the
    system budget request through the IT business
                                                     Almost Always, or 96-100% of the time
    case as required in OMB budget guidance
    (Circular A-11).
h. OIG has access to POA&Ms as requested.             Almost Always, or 96-100% of the time

i. OIG findings are incorporated into the POA&M
                                                      Almost Always, or 96-100% of the time
    process.
j. POA&M process prioritizes IT security
    weaknesses to help ensure that significant IT
                                                      Almost Always, or 96-100% of the time
    security weaknesses are addressed in a timely
    manner and receive appropriate resources.
Comments:

See Comments to B.1 for detailed discussion of POA&M process



                                              B-5
C.2 OIG Assessment of the Certification and Accreditation Process Section C should
only be completed by the OIG. OMB is requesting IGs assess the agency’s certification
and accreditation process to provide a qualitative assessment of this critical activity.
This assessment should consider the quality of the Agency’s certification and
accreditation process. Any new certification and accreditation work initiated after
completion of NIST SP 800-37 should be consistent with NIST SP 800-37. This
includes use of the Federal Information Processing Standards Publication 199,
“Standards for Security Categorization of Federal Information and Information Systems,”
to determine an impact level, as well as associated NIST documents used as guidance
for completing risk assessments and security plans. Earlier NIST guidance is applicable
to any certification and accreditation work completed or initiated before finalization of
NIST SP 800-37. Agencies were not expected to use NIST SP 800-37 as guidance
before it became final.

                        Statement                                   Evaluation
Assess the overall quality of the Agency's certification            Satisfactory
and accreditation process.                                       (generally met the
                                                              requirements of FISMA,
                                                                  NIST, and PMA)
Comments:

SSA identified 20 major applications and systems that are considered significant to
the Agency's ability to support its mission. All 20 C&A managers reviewed their
systems and prepared the C&A packages. The C&A packages compiled for the CIO
included:

    Risk Assessments at least once every 3 years or before implementing a
     significantly modified application into production.
    Security Plan.
    Completion of the NIST SP 800-26 questionnaire.
    Certification by appropriate component management that the application or
     system complies with Federal, OMB, NIST, etc. requirements.
    Final sign-off for completeness of the C&A package by CIO.

 The Agency plans to use ASSERT to complete the NIST SP 800-26 questionnaires.
 Currently, the questionnaires are prepared manually.




                                           B-6
D.    Agency-Wide Security Configuration

D.1. First, answer D.1. If the answer is yes, then proceed. If no, then skip to Section E.
For D.1.a-f, identify whether agency-wide security configuration requirements address
each listed application or operating system (Yes, No, or Not Applicable), and then
evaluate the degree to which these configurations are implemented on applicable
systems. For example: If your agency has a total of 200 systems, and 100 of those
systems are running Windows 2000, the universe for evaluation of degree would be
100 systems. If 61 of those 100 systems follow configuration requirement policies, and
the configuration controls are implemented, the answer would reflect "yes" and
"51-70%". If appropriate or necessary, include comments in the Comment area
provided below.

                                                       Yes
                                                      or No           Evaluation

D.1. Has the CIO implemented agency-wide
policies that require detailed specific security
                                                       Yes
configurations and what is the degree by which the
configurations are implemented?
                                                              Almost Always, or 96-100%
     a. Windows XP Professional                         Yes
                                                              of the time
                                                              Almost Always, or 96-100%
     b. Windows NT                                      Yes
                                                              of the time
                                                              Almost Always, or 96-100%
     c. Windows 2000 Professional                       Yes
                                                              of the time
                                                              Almost Always, or 96-100%
     d. Windows 2000                                    Yes
                                                              of the time
                                                              Almost Always, or 96-100%
     e. Windows 2000 Server                             Yes
                                                              of the time

     f. Windows 2003 Server                             No    Rarely, or 0-50% of the time

                                                              Almost Always, or 96-100%
     g. Solaris                                         Yes
                                                              of the time
                                                              Almost Always, or 96-100%
     h. HP-UX                                           Yes
                                                              of the time
     i. Linux                                           N/A   Not applicable
                                                              Almost Always, or 96-100%
     j. Cisco Router IOS                                Yes
                                                              of the time
     k. Oracle                                          No    Rarely, or 0-50% of the time


                                           B-7
                                                       Yes
                                                      or No            Evaluation

                                                               Almost Always, or 96-100%
     l.a. Other. Specify: IBM AS/400 (AIX)              Yes
                                                               of the time
     l.b. Other. Specify: UNISYS (UNIX)                 Yes    Rarely, or 0-50% of the time
     l.c. Other. Specify: IBM zOS                       No     Rarely, or 0-50% of the time
Comments:
D1.i. The Agency does not use or support Linux.
D.1.k. The Oracle application is installed and in operation on a UNIX platform.
        The Agency has developed a UNIX risk model.
D.1. I. The Agency supports IBM AS/400, Unisys servers, and IBM mainframes.
        There is a standard profile in place for AS/400 and Unisys servers, but not for
        the mainframes. The standard has not been consistently enforced for the
        Unisys hardware.

D.2. Answer Yes or No, and then evaluate the degree to which the configuration
requirements address the patching of security vulnerabilities. If appropriate or
necessary, include comments in the Comment area provided below.

                                                      Yes or
                                                       No              Evaluation
D.2. Do the configuration requirements
implemented above in D.1.a-f., address patching of     Yes     Mostly, or 81-95% of the time
security vulnerabilities?
Comment:

Patch management procedures address patches in multiple ways. One is to
automatically implement patches to hardware through a software solution. This ensures
that patches are implemented in a timely manner. The other is to make the patches
available. Then, when a hardware "owner" logs onto the system from the Agency
network, they are expected to identify the patches needed, download the patches, and
install them at that first session.




                                           B-8
E.       Incident Detection and Handling Procedures

E.1. Evaluate the degree to which the following statements reflect the status at your
agency. If appropriate or necessary, include comments in the Comment area provided
below.
Statement                                                     Evaluation
a. The agency follows documented policies and                 Almost Always, or 96-100% of
   procedures for reporting incidents internally.             the time
b. The agency follows documented policies and                 Almost Always, or 96-100% of
   procedures for external reporting to law enforcement       the time
   authorities.
c. The agency follows defined procedures for reporting to Almost Always, or 96-100% of
   the United States Computer Emergency Readiness             the time
   Team (US-CERT). http://www.us-cert.gov
E.2. Incident Detection Capabilities.
                                                                Number of       Percentage
                                                                 Systems          of Total
                                                                                 Systems
a. How many systems underwent vulnerability scans and                20            100 %
   penetration tests in FY04?
b. Specifically, what tools, techniques, technologies, etc., does the agency use to mitigate
   IT security risk?

     The Agency uses a combination of automated tools, system monitoring techniques and
     network penetration-type reviews to identify malicious activity and security weaknesses.
     Some of the specific tools are as follows:

                  DumpACL
                  Ettercap, a packet sniffer
                  Harris Stat, a vulnerability scanner
                  Nmap, network port scanner and operating system identifier
                  Phonesweep, a commercial wardialer
                  Whisker, common gateway interface vulnerability scanner




                                             B-9
F.     Incident Reporting and Analysis

F.1. For each category of incident listed: identify the total number of successful
incidents in FY04, the number of incidents reported to US-CERT, and the number
reported to law enforcement. If your agency considers another category of incident
type to be high priority, include this information in category VII, "Other." If appropriate or
necessary, include comments in the Comment area provided below.

                                            F.1. Number of Incidents, by category:
                                          F.1.a.           F.1.b.              F.1.c.
                                        Reported         Reported to       Reported to law
                                        internally        US-CERT           enforcement

I.   Root Compromise                        0                  0                   0
II. User Compromise                         0                  0                   0
III. Denial of Service Attack               0                  0                   0
IV. Website Defacement                      0                  0                   0
V. Detection of Malicious Logic             0                  0                   0
VI. Successful Virus/Worm
    Introduction                            0                  0                   0
VII. Other                                  0                  0                   0

                            Totals:         0                  0                   0




                                            B-10
F.2 Identify the number of systems affected by each category of incident in FY04. If
appropriate or necessary, include comments in the Comment area provided below.

                                   F.2. Number of systems affected, by category, on:
                                      F.2.a.          F.2.b.               F.2.c.
                                   Systems with      Systems            How many
                                   complete and      without            successful
                                    up-to-date     complete and     incidents occurred
                                       C&A          up-to-date           for known
                                                       C&A           vulnerabilities for
                                                                    which a patch was
                                                                         available?

I.   Root Compromise                    0                 0                   0
II. User Compromise                     0                 0                   0
III. Denial of Service Attack           0                 0                   0
IV. Website Defacement                  0                 0                   0
V. Detection of Malicious Logic         0                 0                   0
VI. Successful Virus/Worm
    Introduction                        0                 0                   0
VII. Other                              0                 0                   0


                         Totals:        0                 0                   0
Comments:

There were multiple critical system scans accomplished during the course of FY 2004,
including those completed by OIG during the FY 2004 Financial Statement Audit. This
included scans of the computers at certain field locations during the Financial Statement
Audit. SSA identified these "events" and took action to investigate and analyze them.
However, SSA did not consider these events to be reportable based on the
interpretation of this category, and did not include these events in any of the noted
categories.




                                            B-11
G.      Training
G.1 Has the agency CIO ensured security training and awareness of all employees,
including contractors and those employees with significant IT security responsibilities? If
appropriate or necessary, include comments in the Comment area provided below.

     G.1.a.           G.1.b.                G.1.c.                  G.1.d.         G.1.e.    G.1.f.

    Total    Employees that     Total number     Employees with       Briefly    Total
 number of received IT security of employees significant security describe costs for
 employees awareness training with significant responsibilities that training providing
  in FY04      in FY04, as       IT security   received specialized provided       IT
            described in NIST responsibilities      training, as                security
                SP 800-50                       described in NIST             training in
                                                  SP 800-50 and                  FY04
                                                       800-16                   (in $'s)
               Number    Percentage                       Number Percentage

                                                                                    See
     65,312    65,242      99.89%            345           331         95.94%              $603,695
                                                                                  comments
                                                   G.2.
                                                                      Yes or No


a. Does the agency explain policies regarding peer-to-peer file
   sharing in IT security awareness training, ethics training, or        Yes
   any other agency wide training?
Comments:

G.1.b Annually, SSA employees are required to acknowledge that they have read and
understand the Sanctions for Unauthorized System Access Violations policy as their security
awareness training.

G.1.e. The following is a partial list of the security-oriented courses taken by Agency staff
during FY 2004 who had job duties that included significant security responsibilities:

     Active Directory;
     Auditing Your Information Security Program;
     Certified Information Systems Security Professional (CISSP) Workshop;
     Computer Security Awareness;
     Computer Security Program Manager Forum;
     Defense Against Social Engineering;
     Ethical Hacking and Assessment; and
     Focus on FISMA III Symposium.



                                              B-12
                                                                               Appendix C

Background and Current Security Status
The Federal Information Security Management Act (FISMA) requires agencies to create
protective environments for their information systems. It does so by creating a
framework for annual Information Technology (IT) security reviews, vulnerability
reporting, and remediation planning.1 Since 1997, the Social Security Administration
(SSA) has had an internal controls reportable condition concerning its protection of
information.2 The resolution of this reportable condition remains a priority for the
Agency. SSA is working with the Office of the Inspector General (OIG) and
PricewaterhouseCoopers LLP (PwC) to develop an approach to resolve this reportable
condition and other issues observed during the past FISMA reviews.

In August 2001, the President’s Management Agenda (PMA) was initiated to improve
the management and performance of Government. The Agenda’s guiding principles are
that Government services should be citizen-centered, results-oriented, and market
based. The Office of Management and Budget (OMB) developed a traffic light
scorecard to show the progress agencies made: green for success, yellow for mixed
results, and red for unsatisfactory. One of the five Government-wide initiatives is to
increase the number of Government services available to the public electronically
through the Internet. This initiative is known as expanded Electronic Government or
eGovernment. SSA’s current status is yellow and its score for progress in implementing
eGovernment services is green. FISMA requires agencies to take a risk-based, cost-
effective approach to securing their information and systems, and assists Federal
agencies in meeting their responsibilities under the PMA. FISMA reauthorized the
framework laid in the Government Information Security Reform Act (GISRA), which
expired in November 2002.3 In addition to the previous GISRA requirements, FISMA
authorizes the National Institute of Standards and Technology to develop standards for
agency systems and security programs.4 SSA has committed significant resources on
getting to green on the eGovernment initiative.

FISMA also requires agencies to prepare and submit plan of action and milestones
(POA&M) reports for all programs and systems where an IT security weakness was
found.5 The purpose of the POA&M is to assist agencies in identifying, assessing,
prioritizing, and monitoring the progress of corrective efforts for reported security
weaknesses. POA&M reports support the effective remediation of IT security
weaknesses, which is essential to achieving a mature and sound IT security program

1
    Pub. L. No. 107-347, Title III, Sec. 301, § 3544.
2
    SSA’s FY 2003 Performance and Accountability Report, page 183.
3
    Pub. L. No. 106-398.
4
    Pub. L. No. 107-347, Title III, Sec. 301, § 3543 (a)(3).
5
    OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security
    Management Act, August 23, 2004, page 14.



                                               C-1
and securing agency information and systems. FISMA now requires an OIG’s
evaluation of the Agency’s POA&M process.6 This evaluation is instrumental in
enabling the Agency to get to green under the eGovernment scorecard of the PMA.




6
    Id., page 12.


                                      C-2
                                                                               Appendix D

Scope and Methodology
The Federal Information Security Management Act (FISMA) directs each agency’s
Office of the Inspector General (OIG) to perform an annual, independent evaluation of
the agency’s information security program and practices, as well as a review of an
appropriate subset of agency systems.1 The Social Security Administration (SSA) OIG
contracted with PricewaterhouseCoopers LLP (PwC) to audit SSA’s Fiscal Year (FY)
2004 financial statements. Because of the extensive internal control system work that is
completed as part of that audit, our FISMA review requirements were incorporated into
the PwC financial statement audit contract. This audit included Federal Information
System Controls Audit Manual-level reviews of SSA’s mission critical sensitive systems.
PwC performed an “agreed-upon procedures” engagement using FISMA, the Office of
Management and Budget (OMB) guidance,2 National Institute of Standards and
Technology (NIST) guidance, and other relevant security laws and regulations as a
framework to complete the OIG required review of SSA’s information security program
and practices and its sensitive systems. Part of the field work included the completion
of the NIST Security Self-Assessment Guide for Information Technology Systems.3

In addition, we evaluated the Agency’s compliance with the President’s Management
Agenda, specifically, the Electronic Government initiative, and determined whether the
Agency had developed, implemented, and managed an Agency-wide plan of action and
milestones (POA&M) process.

The results of our FISMA evaluation were based on the PwC FY 2004 FISMA Agreed-
Upon Procedures report and working papers, various audits and evaluations performed
by the Agency, contractors including PwC, and this office. We also reviewed the final
draft of SSA's FY 2004 Security Program Review.4

A major focus of our review was an evaluation of SSA’s POA&M, certification and
accreditation (C&A), and systems inventory processes. Our evaluation of SSA’s
POA&M process included an analysis of Automated Security Self-Evaluation and
Remediation Tracking system and its policies. Our review of the Agency’s C&A process
included an analysis of all C&As for the 20 major systems. Our review of the systems
inventory process included a review of the subsystems within the new inventory and a
comparison of this new inventory to other listings of Agency’s subsystems.

We performed field work at SSA facilities nationwide from March through September
2004. This evaluation was performed in accordance with generally accepted
government auditing standards.

1
  Pub. L. No. 107-347, Title III, Sec. 301, § 3545.
2
  OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security
  Management Act, August 23, 2004.
3
  NIST Special Publication 800-26 Security Self-Assessment Guide for Information Technology Systems,
  November 2001.
4
  FY 2004 Security Program Review, provided to our office on August 27, 2004.
                                                                      Appendix E

Systems Certified and Accredited in FY 2004
#                             System                                   Acronym
                 General Support Systems
1   Audit Trail System                                        ATS
2   Comprehensive Integrity Review Process                    CIRP

3   Death Alert Control & Update System                       DACUS

4   Debt Management System                                    DMS

5   Disability Case Adjudication and Review System            DICARS

6   Disability Control File System                            DCFS

7   Enterprise Wide Area Network and Services System          EWANSS
8   FALCON Data Entry System                                  FALCON

9   Human Resources Management Information System             HRMIS

10 Integrated Client Database                                 ICDB

11 Logiplex Security Access Systems                           LSAS

12 Recovery of Overpayments, Accounting, & Reporting System   ROAR

13 Social Security Online Accounting and Reporting System     SSOARS
14 Social Security Unified Measurement Systems                SUMS

                      Major Applications
1   Accelerated Electronic Disability System                  AeDib
2   Earnings Record Maintenance System                        ERMS
3   Retirement, Survivors & Disability Insurance System -     RSDI – Accounting
    Accounting
4   SSN Establishment & Correction System                     SSNECS
5   Supplemental Security Income Records Maintenance System   SSIRMS

6   Title II System
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technology Audit Division
   (410) 965-9702

   Al Darago, Acting Director, Data Analysis and Technology Audit Division
   (410) 965-9710

   Phil Rogofsky, Audit Manager, Network Security and Telecommunications Branch
   (410) 965-9719

Acknowledgments

In addition to the persons named above:

       Greg Thompson, Senior Auditor

       Mary Ellen Fleischman, Senior Program Analyst

       Harold Hunter, Senior Auditor

       Grace Chi, Auditor

       Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-04-14040.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
